No. 19A184
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DOUGLAS BROWNBACK AND TODD ALLEN,
APPLICANTS
v.
JAMES KING
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR A FURTHER EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH CIRCUIT, via email and first-class mail, postage
prepaid, this 13th day of September, 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 13, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19A184
DOUGLAS BROWNBACK AND TODD ALLEN
JAMES KING

PATRICK M. JAICOMO
DAVID A. PORTINGA
MILLER JOHNSON
45 OTTAWA AVENUE, SW
SUITE 1100
GRAND RAPIDS, MI
49503
616-831-1700
JAICOMOP@MILLERJOHNSON.COM

